<html>
<title> - YOU'VE GOT MAIL--BUT IS IT SECURE? AN EXAMINATION OF INTERNET VULNERABILI-TIES AFFECTING BUSINESSES, GOVERNMENTS AND HOMES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





     YOU'VE GOT MAIL--BUT IS IT SECURE? AN EXAMINATION OF INTERNET 
      VULNERABILITIES AFFECTING BUSINESSES, GOVERNMENTS AND HOMES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-95

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

<star>91-445      U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 16, 2003.................................     1
Statement of:
    Evans, Karen, Administrator, Office of Electronic Government, 
      Office of Management and Budget............................    23
    Leighton, Dr. F. Thomson, chief scientist, Akamai 
      Technologies, Inc., professor of applied mathematics, MIT; 
      and Kenneth Ammon, president and co-founder, government 
      solutions, NETSEC, Inc.....................................    33
Letters, statements, etc., submitted for the record by:
    Ammon, Kenneth, president and co-founder, government 
      solutions, NETSEC, Inc., prepared statement of.............    73
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    20
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Evans, Karen, Administrator, Office of Electronic Government, 
      Office of Management and Budget, prepared statement of.....    26
    Leighton, Dr. F. Thomson, chief scientist, Akamai 
      Technologies, Inc., professor of applied mathematics, MIT, 
      prepared statement of......................................    40
    Sanchez, Hon. Linda T., a Representative in Congress from the 
      State of California, prepared statement of.................    14
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     9

 
     YOU'VE GOT MAIL--BUT IS IT SECURE? AN EXAMINATION OF INTERNET 
      VULNERABILI-TIES AFFECTING BUSINESSES, GOVERNMENTS AND HOMES

                              ----------                              


                       THURSDAY, OCTOBER 16, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Ose, 
Platts, Turner, Blackburn, Waxman, Cummings, Tierney, Watson, 
Van Hollen, Sanchez, Ruppersberger, and Norton.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Ellen Brown, legislative director and 
senior policy counsel; Randall Kaplan, counsel; David Marin, 
director of communications; Victoria Proctor, senior 
professional staff member; Drew Crockett, professional staff 
member; Teresa Austin, chief clerk; Brien Beattie, deputy 
clerk; and Corinne Zaccagnini, chief information officer; 
Michelle Ash, minority counsel; Nancy Scola, minority 
professional staff member; Earley Green, minority chief clerk; 
Jean Gosa, minority assistant clerk; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order. I would 
like to welcome everybody to today's hearing on Internet 
vulnerabilities and the threat they pose to our national 
security, public health and safety, and economy.
    Citizens, businesses and governments rely on the Internet 
for a variety of activities: business transactions, acquisition 
of goods and services, and the collection and dissemination of 
information, to name just a few. This morning the committee 
will review what steps these disparate groups are taking to 
create a more secure cyber-environment, with particular 
attention to the Federal Government's response to this growing 
cyber-threat.
    My primary goal today is one of public education. Computer 
security can no longer be relegated to the back benches of 
public discourse, or remain the concern solely of governments 
or corporate technology experts. Think of electronic tax filing 
or online license renewals. The fact that we are all ever-more 
``interconnected'' means we are all in this battle together. 
What affects one system could very well affect all of us, and 
the unfortunate reality is that the Internet is inherently a 
breeding ground for malevolent actors.
    Congress has taken some strides to help Federal agencies 
protect their information systems from security breaches. I 
sponsored FISMA, the Federal Information Security Management 
Act of 2002, which was enacted last year as part of the E-
Government Act of 2002. FISMA provides a strong framework for 
information security in the Federal Government by requiring 
Federal agencies to use a risk-based management approach to 
secure their information systems.
    This year, Chairman Putnam and his subcommittee will 
closely oversee implementation of FISMA, including new OMB 
guidelines, and the establishment of agency testing and 
evaluation plans, and the development and promulgation of 
information security standards. FISMA is a step in the right 
direction for Government, but the threat is still great.
    As we have seen in recent months, computer viruses and 
worms can cause significant damage to home and work computers. 
Loss of files and data can cause irreparable financial damage, 
mar a business reputation and even shut down operations in a 
private or Government enterprise. Furthermore, hackers are able 
to divert traffic from Web sites and steal information, 
including personally identifiable information, patients' 
medical records, and financial details. The financial impact of 
such attacks is estimated to range from hundreds of millions 
into the billions of dollars. Other intentional threats include 
electronic eavesdropping or scanning to uncover passwords and 
other data.
    But there are also unintentional threats that can be caused 
by flaws in computer software. From chief information officers 
to students to small business owners, everyone needs to know 
how to respond to cyber attacks. When a new flaw is identified 
in ubiquitous software like Microsoft operating systems, users 
need to take preemptive action to minimize damage from the 
inevitable hacker attacks. For example, security patches 
released by software manufacturers can be installed in systems 
to correct these flaws. When patches are announced, one has to 
act quickly to install them. So does the average computer user 
know what software he is running? Does he know if the alert 
applies to him? If so, does he know where to find the patch and 
how to apply it? The committee is examining these questions as 
part of the information security effort in the Federal 
Government.
    The aggressive push to implement e-government initiatives 
means that Federal computer systems are communicating with 
computers in homes and businesses. If non-Federal computers are 
not adequately secured, there is an added risk to our Federal 
system. The challenge for the Federal Government is to promote 
electronic government initiatives while ensuring the integrity 
of its systems.
    Educating all computer users about cyber security is 
critical. It is a matter of public safety, and our outreach 
needs a sense of urgency. When you connect to another computer, 
you are connecting to every computer that computer has ever 
connected to. Now, for most computer users, security is an 
issue that they may address at work, but most people are lax 
about securing a home computer that is connected to the 
Internet. The average user needs to understand the full range 
of threats. For example, how software such as peer-to-peer file 
sharing applications leave computers defenseless against cyber 
attacks. For instance, the recent Swen worm circulating in 
Europe purports to be a Microsoft security alert and enters 
computers as an e-mail attachment on an e-mail ``delivery 
failure'' notice. Then it tries to spread to other computers 
through the Kazaa peer-to-peer file-sharing network. Because of 
the interconnectivity of the information systems and the 
increased reliance on computers for transactions via the 
Internet, this type of worm has the potential to cause 
significant damage to home computers as well as those in 
businesses, financial institutions, and governments.
    Even our Nation's critical infrastructure sectors depend on 
information systems to protect the Nation's water supply, oil 
and gas pipelines, electrical grids, and other critical 
infrastructure. Significant damage to these systems could have 
a devastating impact on our national security, public health 
and safety, and economy. In fact, terrorists have already 
expressed their intent to attack our critical infrastructure, 
prompting the GAO to include cyber critical infrastructure 
protection on its high-risk series for the first time in 
January 2003.
    We have three distinguished witnesses with us this morning 
to help shed some light on this important issue. On our first 
panel, the committee will hear from Ms. Karen Evans, the 
Administrator of the Office of Electronic Government at OMB. 
This is her maiden testimony before this committee. She will 
testify about the Federal Government's response to this growing 
cyber threat. Welcome, Karen. We are happy to have you here. 
You come here with a great reputation from the Department of 
Energy, so we are pleased to hear what you say and look forward 
to working with you.
    Our second panel is Dr. Tom Leighton, the co-founder and 
chief scientist of Akamai Technologies, and Mr. Kenneth Ammon, 
president and co-founder of NetSec. Akamai will give a 
demonstration of the ``Slammer'' worm's effect in elapsed time 
and its estimated impact on individual computers and networks. 
A presentation from NetSec will show the ease with which the 
average computer user can obtain names, Social Security 
numbers, and other sensitive information through popular search 
engines like Google.
    I would like to thank all of our witnesses for appearing 
before the committee. I look forward to their testimony. I now 
yield to Mr. Waxman for his opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.001
    
    [GRAPHIC] [TIFF OMITTED] T1445.002
    
    [GRAPHIC] [TIFF OMITTED] T1445.003
    
    [GRAPHIC] [TIFF OMITTED] T1445.004
    
    Mr. Waxman. Thank you, Mr. Chairman. I want to commend you 
for holding this hearing. This hearing today is another 
important hearing on computer security.
    Earlier this year we held a series of hearings on the risks 
of peer-to-peer file sharing programs, including how they could 
be used to find all kinds of personal data about computer 
users. This then led to the introduction and passage in the 
House of the Government Network Security Act of 2003, which 
requires Federal agencies to assess the risk posed by peer-to-
peer file sharing programs.
    Today we are exploring another aspect of computer security: 
how worms and viruses spread rapidly across the Internet, 
finding unprotected computers. We also will learn how millions 
of people are using wireless networks, many unaware that their 
computers are vulnerable to attack. Business, governments, and 
individual home users are at risk for computer invasion. 
Efforts must be taken by all users to make the Internet more 
secure.
    There is an important role for government in protecting 
families from the risks of worms, viruses, and other malicious 
files. American families do not have computer experts on staff, 
or even easy access to training. If the family is lucky, it has 
a teenager who understands computers, but even that is not 
enough. The Government can help by providing the public access 
to the vast wealth of information on computer security 
developed by our Government agencies.
    Computer software manufacturers can help also. Patch 
management on home computers is becoming more automated, but it 
is not clear that the majority of the public understands the 
importance of installing these patches and what the patches do. 
It would be better if the software had fewer holes when it was 
shipped.
    The Internet is a communal good. No one person or 
organization can secure it; it can only be secured by a joint 
effort. That effort needs active participation from businesses 
that work on the Internet as well as businesses that produce 
computer software. And there is a role for Government both in 
securing its own computers and in educating the public of the 
risks and how to handle those risks.
    Mr. Chairman, the hearings you have held on these important 
topics have helped inform Congress and the public and provided 
the foundation for legislation. I want to commend you for your 
leadership on these issues, and I look forward to the hearing.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.005
    
    [GRAPHIC] [TIFF OMITTED] T1445.006
    
    [GRAPHIC] [TIFF OMITTED] T1445.007
    
    Chairman Tom Davis. Thank you very much.
    Any other Members wish to make statements? Ms. Sanchez.
    Ms. Sanchez. I would like to commend Chairman Davis and 
Ranking Member Waxman for calling this important hearing today, 
because I know, firsthand, how tedious and cumbersome computer 
infections can be. In the past year I have had several computer 
viruses, and, as a result, every time my computer screen 
freezes, I am paranoid that I have another virus.
    Through an e-mail list serve that I have called the 
Washington Update, I update my constituents on a regular basis 
about what is happening in Washington, DC, and when I wrote to 
my constituents about today's hearing and requested that they 
share with me some of their experiences with computer viruses, 
the results were immediate and resounding. I was inundated with 
e-mails about the economic, social, and personal toll computer 
viruses have on the lives of my constituents, and I just want 
to share a really quick sampling of some of those stories 
before we begin.
    A gentleman by the name of Mark Patton, who owns a business 
in my community, wrote to me and said, ``Our business was 
victimized by a number of computer viruses on one occasion. We 
had hired an IT consultant to provide maintenance for our 
network, but, unfortunately, they were not keeping up with our 
virus protection. As a result, we had to replace our server, 
upgrade our system, and subsequently fire our IT consultant. 
The entire episode cost our small business over $10,000, 
without even considering the lost time we incurred. Viruses are 
a threat to all businesses. The lesson is buyer beware when 
hiring an IT consultant, but, more importantly, as businesses 
become more and more dependent on the Internet, Internet 
security becomes a very important issue.''
    The Mission Hills Mortgage Bankers Gateway Business Bank 
wrote to me and said, ``At the height of the virus infected e-
mail epidemic, Mission Hills Mortgage Bankers Gateway Business 
Bank Web mail site was swamped with thousands of virus-laden e-
mails a day in August and September. Fortunately, our firewall 
and virus software caught and cleaned up our e-mail system, but 
the unsanitized e-mail was passed through to the individuals to 
whom it was addressed. Personally, I was deleting 30 to 50 e-
mails a day, both annoying and time-consuming. What I didn't 
know was how vulnerable a home computer with DSL or cable 
access is without a firewall, even with virus checker software. 
I wasn't aware that viruses can come through to your computer 
in ways other than on an e-mail until I got one. That was a 
month ago. I purchased and installed a firewall right away, but 
I am still experiencing a problem with my computer. Apparently 
the damage to files can remain after the virus is cleaned up.''
    And this problem has not only affected the businesses that 
wrote to me, but Rio Hondo Community College wrote to me: ``We 
were hit hard by the worm at Rio Hondo College during the first 
week of our semester this fall. Our mainframe computer and 
every desktop computer on campus was unusable for a week. We 
could not register students, certify athletic eligibility of 
athletes, process financial aid requests, conduct many of our 
classes, or function in any capacity for a whole week. Eight 
weeks later we are still trying to get computers and printers 
and e-mail functioning for everyone.''
    This particular little anecdote very much moved me. A 
constituent by the name of Mark Katt wrote: ``I like to take 
pictures of my daughter, who is currently 2 years old. I use my 
digital camera to take a picture of her from the moment she was 
born and every single month until she reached her first 
birthday. I stored all of those pictures in my hard drive, so 
when I would be ready I would sort them all out and have them 
developed and make a nice album that I could show my daughter 
when she grew up, and maybe play a slide show during her 18th 
birthday party. But my computer was hit by the virus just 
before I got them developed. My 1 year worth of project, my 
dream and my gift to my daughter, are all gone, together with 
the pictures. I would pay, no matter what the price, if I could 
retrieve all of those pictures. They were priceless, and you 
cannot bring back the hands of time.''
    Diane Schumacher from my district wrote: ``I had a virus in 
September of this year. It was the ``So Big'' virus. I got it 
when I purchased an item over the Internet that came with an 
attachment. I have been laid off. The last thing I needed was 
to be out of contact not only with the EDD, the Employment 
Development Department, but also with my job search and support 
groups, not to mention the expense of trying to repair the 
damage.''
    The stories that I have just shared with you today 
underscore the prevalence of computer infections. Furthermore, 
computer viruses are a very real problem not just for 
businesses, but home users are also affected by this burdensome 
and costly problem. An unemployed constituent, a community 
college, a bank, and a father all have been victimized by 
computer viruses. They affect everybody. There is much work 
ahead of us to eradicate the threat of computer infections, so 
I want to thank each of the witnesses for being here today to 
discuss this important topic, and I look forward to their 
testimony.
    Again, I would like to thank the chairman and the ranking 
member for holding this hearing.
    [The prepared statement of Hon. Linda T. Sanchez follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.008
    
    [GRAPHIC] [TIFF OMITTED] T1445.009
    
    [GRAPHIC] [TIFF OMITTED] T1445.010
    
    [GRAPHIC] [TIFF OMITTED] T1445.011
    
    [GRAPHIC] [TIFF OMITTED] T1445.012
    
    Chairman Tom Davis. Thank you very much.
    Any other opening statements?
    Mr. Cummings. Mr. Chairman, I have a very brief statement.
    Chairman Tom Davis. Sure. Gentleman from Maryland.
    Mr. Cummings. I want to thank you, Mr. Chairman, for 
holding today's hearing on the vulnerability of the Internet 
for both businesses and citizens.
    Initially, computers alone were subject to programming 
errors or bugs that were attached to computer programs 
affecting only individual computers, without the risk that the 
error would be passed on to another computer. Today, however, 
with increased knowledge about cyber technology and the advent 
of the Internet security weaknesses in both computers and on 
the Internet and because the Internet connects millions upon 
millions of computers and computer networks belonging to 
governments, business, schools, and homes, these seemingly 
small viruses or worms sent out by hackers have the potential 
to do major harm to computer operating systems.
    The Internet is fundamental to present-day living. Business 
is conducted online, items are purchased and sold online, 
individuals communicate daily via e-mail or gather news and 
information from Web pages, and many even manage their accounts 
and conduct banking online. More importantly, the Federal 
Government, as well as other national structures, rely on the 
Internet for managing issues ranking from banking to defense. 
Because of this, cyber safety and security is pertinent, not 
only to individuals and private entities, but also to Federal 
security.
    Today's hearing will serve as an avenue to educate the 
general public about the Internet's vulnerability, and it will 
also address important issues regarding the different ways 
researchers, the Government, and the software industry can work 
together to eliminate these vulnerabilities through the 
creation of effective patches and systems for dealing with 
Internet security risks, as well as the expedition and 
discovery of cyber criminals. We must be proactive in our 
efforts to deal with cyber security and our review of the many 
different ways technology has the potential to greatly enhance 
or reduce the quality of life for Americans and the rest of the 
world.
    Again, I thank you, Mr. Chairman, for holding this hearing. 
I look forward to hearing from our witnesses today as we 
discuss different ways to protect the vital infrastructure of 
the Internet and educate home and small business users about 
computer infections.
    With that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1445.013

[GRAPHIC] [TIFF OMITTED] T1445.014

[GRAPHIC] [TIFF OMITTED] T1445.015

    Chairman Tom Davis. Thank you.
    Any other statements?
    All right, we will proceed to our first panel. Again, we 
have the Honorable Karen Evans, the Administrator of the Office 
of Electronic Government at the Office of Management and 
Budget.
    It is the policy of this committee that we swear you in, so 
if you would rise with me and raise your right hand.
    [Witness sworn.]
    Chairman Tom Davis. Thanks for being with us. Your whole 
statement is in the record. You have a light in front of you. 
When it turns orange, 4 minutes are up. You are given 5 
minutes. If you need more, take it, but I think we would like 
to keep to that so we can get to questions. Keep it moving. 
Thank you.

 STATEMENT OF KAREN EVANS, ADMINISTRATOR, OFFICE OF ELECTRONIC 
          GOVERNMENT, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Evans. Good morning, Mr. Chairman, Ranking Member 
Waxman, and members of the committee. Thank you for inviting me 
to discuss the Federal Government's response to this growing 
cyber threat.
    The Federal Computer Incident Response Center, FedCIRC, 
within the Department of Homeland Security is the Federal 
Government's civilian focal point for coordinating response to 
cyber attacks, promoting incident reporting, and cross-agency 
sharing of data about common vulnerabilities. As part of its 
responsibilities, FedCIRC informs Federal agencies about 
current and potential security threats.
    Working with FedCIRC, OMB and the CIO Council have 
developed a process to rapidly counteract identified threats 
and vulnerabilities. CIOs are advised via conference call, as 
well as followup e-mail, of specific actions needed to protect 
agency systems. Agencies must then report to OMB on the 
implementation of required countermeasures.
    FedCIRC maintains a strong relationship with a number of 
industry as well as government partners. These partners include 
commercial software vendors, Carnegie Mellon University's 
Computer Emergency Response Team, law enforcement, the 
intelligence community, and agency incident response teams. 
These organizations routinely communicate advance notice to DHS 
regarding the discovery of software vulnerabilities and the 
development of malicious code designed to exploit these 
weaknesses.
    Securing cyberspace is an ongoing process as new 
technologies appear and new vulnerabilities are identified. The 
National Institute of Standards and Technology [NIST], provides 
timely guidance to Federal agencies on securing networks, 
systems and applications. NIST recommends that agencies 
implement patch management programs, harden all hosts 
appropriately, deploy antivirus software to detect and block 
malicious code, and configure the network perimeter to deny all 
traffic that is not necessary. Additional recommendations 
include user awareness briefings, as well as training for 
technical staff on security standards and procedures.
    As part of its statutory responsibilities under the Federal 
Information Security Management Act, NIST published in 
September a draft Computer Security Incident Handling Guide. 
This publication seeks to help both established and newly 
formed incident response teams to respond effectively and 
efficiently to a variety of incidents.
    Another critical mechanism used to enforce protection of 
Federal systems is the Federal Information Security Management 
Act [FISMA]. Under FISMA, the Federal agencies are required to 
periodically test and evaluate the effectiveness of their 
information security policies, procedures, and practices. The 
results of both the agency self-assessments and the IG 
assessments are provided to OMB each September. OMB submits a 
summary report to Congress based on the agency and IG reports.
    Improving the Federal Government's response to Internet-
based attacks also requires that we focus on enterprise 
architecture and standardized deployment of security 
technologies. As new technologies become available and cost-
effective, they must be incorporated into the IT infrastructure 
where they can monitor common precursors and indications of 
attacks.
    Discerning the source of malicious Internet activity is 
often difficult. The Federal Government will continue to rely 
on Federal, State, and local law enforcement to investigate and 
prosecute developers of worms, viruses, and denial of service 
attacks. Agencies must continue to report computer incidents 
and assist law enforcement investigations to the greatest 
extent possible.
    The National Strategy to Secure Cyberspace recommends that 
the software industry consider promoting a more secure out-of-
the-box installation and implementation of their products, 
including increasing user awareness and user friendliness of 
their security features. OMB supports the agency use of 
enterprise licensing agreements which will require vendors to 
configure software to meet security benchmarks.
    Additionally, the Federal Government will soon begin a 
comprehensive review of the National Information Assurance 
Partnership [NIAP]. The review will consider to what extent, if 
any, NIAP can address the continuing problem of security flaws 
in commercial software products. This review will include 
lessons learned from the implementation of the Department of 
Defense July 2002 policy requiring the acquisition of products 
to be reviewed under the NIAP evaluation process.
    Patch management is an essential part of the agency's 
information security program and requires a substantial 
investment of time, effort, and resources. At the present time, 
47 agencies subscribe to FedCIRC's Patch Authentication and 
Dissemination Capability. This service validates and quickly 
distributes corrective patches for known vulnerabilities.
    Because of its vast inventory and the vulnerabilities 
inherent in commercial software, the Federal Government will, 
for the immediate future, continue to be impacted by threats 
from the Internet. Through our oversight of agency security 
polices and practices, OMB will continue to work with agencies 
to ensure that risks associated with cyber attacks are 
appropriately mitigated.
    In closing, OMB is committed to a Federal Government with 
resilient information systems. OMB will continue to work with 
agencies and the Congress to ensure that appropriate 
countermeasures are in place to reduce the impact of Internet-
borne attacks.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.016
    
    [GRAPHIC] [TIFF OMITTED] T1445.017
    
    [GRAPHIC] [TIFF OMITTED] T1445.018
    
    [GRAPHIC] [TIFF OMITTED] T1445.019
    
    Chairman Tom Davis. Thank you very much.
    Let me start the questioning. Mr. Ammon, in his testimony, 
states that computer security can't be an add-on but, rather, 
needs to be integrated into the IT infrastructure management. 
Can you discuss what efforts the Federal Government is taking 
in this regard, recognizing you have just been on the job a few 
weeks? Does OMB adequately address this in the budget review 
process?
    Ms. Evans. What I believe is occurring and what he means by 
that is that cyber security cannot be an afterthought; it can't 
be that the project is thought about or that the business 
investment is thought about, implemented, and then you add on 
cyber security. What OMB is doing through the business case and 
through the budget process is, as agencies develop business 
cases and propose their IT investments, cyber security is a 
critical factor in evaluating that investment and how that 
project is going to move forward. And it is evaluated up front, 
during the investment, prior to the investment decisions being 
made, and you have to address how cyber security is going to be 
implemented as that investment goes forward.
    Chairman Tom Davis. As we let out these large contracts, is 
that a part of it, where we are asking the vendors or the 
potential vendors what the safeguards are they are putting into 
this? Do you know the answer to that?
    Ms. Evans. I would say right now that I can speak from my 
experience at Department of Energy of what was required of me 
through the budget process and through the management process 
that OMB does have over the agencies. And as we move forward 
and as agencies move forward in the procurement process, it is 
incumbent on the CIO, as they make those investment decisions, 
that those questions are asked during the procurement process 
of how you evaluate potential vendors and their products going 
forward so that as those products come into your 
infrastructure, the risk is identified, the risk then is either 
mitigated or a risk assessment is done in accordance with FISMA 
so that you know what the impact of that technology or that 
investment is going to be on your infrastructure. Then a risk 
assessment is done and the manager who is responsible accepts 
whether that risk level is acceptable for implementation within 
the infrastructure.
    Chairman Tom Davis. But an IT contract is a very complex 
piece and procurement officials look at a lot. They look at 
cost.
    Ms. Evans. Yes.
    Chairman Tom Davis. They look at experience. They take a 
look at what innovations can be brought to bear. They may have 
to look at a set-aside provision, depending on what it looks 
like and who is getting it. And I guess my question in all this 
is cyber security is obviously a factor. Ultimately, it could 
be the most important factor as you look down the road. We 
found this with Y2K. Even contracts as late as 1999 were being 
let, and there were no Y2K safeguards being put in. Where does 
this rank in the pecking order, and is there going to be an 
effort to try to rev this up as an important component of 
future IT purposes?
    Ms. Evans. Again, I would like to draw from my past 
experience and bring it forward into my new job at OMB. As a 
CIO, as a past CIO and now responsible for the IT assets of the 
Federal Government as a whole, no decision is made without 
really assessing what the cyber security impact of that will 
be. If it is not assessed at the time, and continuously 
assessed through the life cycle of that investment, it will 
cost more, it could cost more in the long-run; and it is 
important that it is integrated into everything that we do. So 
I plan to bring that forward through several initiatives that 
are already ongoing within OMB to ensure that the cyber 
security aspect of whatever we do is properly addressed.
    Chairman Tom Davis. Because it is a tough balancing act 
when you are looking over cost, experience and innovation, and 
somebody may have a more secure vehicle that may be far more 
expensive, and weighing it.
    Ms. Evans. Yes, it is.
    Chairman Tom Davis. And the purpose of this hearing is, of 
course, cyber security. I think we are going to see in our next 
panel just tremendous vulnerabilities that we have that public 
isn't aware of. I am still very uncomfortable with our level of 
cyber security in Government and in the Internet at large. I 
think people don't understand the inherent risks that are out 
there. So it is a tremendous difficulty, and how we deal with 
it legislatively is one piece, and then the bulk of the public 
goes with the administration and what priority you are going to 
put on it.
    I have one other question before we recognize someone else. 
A number of our vulnerabilities stem from flawed commercial 
software. Since the Federal Government is the largest consumer, 
do you feel that the National Information Assurance Partnership 
is adequately addressing this?
    Ms. Evans. Well, as I stated, we are going to begin a 
review of that and look to what extent that partnership will be 
able to address those particular issues. So as we move forward 
on that, I would be glad to come back to the committee with our 
evaluations.
    Chairman Tom Davis. Keep us involved in that.
    Ms. Sanchez, any questions?
    Any questions?
    Mr. Cummings. I was just wondering, does OMB have efforts 
underway to reduce the amount of paperwork required under the 
Federal Information Security Management Act?
    Ms. Evans. Well, I would say, and again I have to draw from 
my agency experience as one who has to submit a lot of that 
information, who had to submit that, that the current processes 
and procedures in place allow for flexibility for the CIO and 
the program offices to be able to determine and assess what the 
risks are, to be able to submit the information under the Plans 
of Action and Milestones. So I don't know that I necessarily 
look at it as a reduction of paperwork, but it is really a 
process going forward of doing the risk assessment and how you 
accurately reflect that and be able to submit to OMB through 
the Plans of Action and Milestones.
    Mr. Cummings. So when you have older computers, I guess it 
makes it a lot more difficult, that is, the security issues.
    Ms. Evans. If you have older computers? I don't understand 
the question. Are you asking about the security vulnerabilities 
associated with older computers?
    Mr. Cummings. That is correct.
    Ms. Evans. We are getting into a technical discussion here, 
but it is a debate. Some people view that older computers could 
be more secure from the aspect that hackers have a tendency to 
attack and develop malicious code for newer operating systems. 
So some people may argue with you that an older computer is 
more secure because the current attacks are actually targeted 
to more current vulnerabilities. I would say that a CIO, in 
assessing overall security, would have to look at both of 
those: what are the risks associated with maintaining an older 
platform and ability to continue the operations and maintenance 
of that for the program that it is supporting versus the cyber 
security. I believe that we talked about the balancing act and 
the decisions that need to be made so that you can have a full 
comprehensive program moving forward.
    Mr. Cummings. Thank you.
    Chairman Tom Davis. I just have a couple other questions 
before I let you go.
    Ensuring adequate information security obviously requires a 
very skilled level of Federal employee. The Federal Government 
finds itself competing against the private sector for talented 
employees in these areas, and we have seen that some of our 
best and brightest are eligible to retire over the next few 
years in Government. Do you think that agencies have the 
resources necessary to execute the elaborate security measures 
that are necessary to maintain their systems and keep 
Government connected?
    Ms. Evans. I think that there are several initiatives that 
are underway so that agencies have tools that are available to 
them to capitalize on succession planning. Through the 
President's Management Agenda there is a human capital 
initiative that really outlines how an agency is going to deal 
with all aspects of human capital and succession planning. 
Also, through the work of the Federal CIO Council and through 
the work on the Committee on Human Workforce Development, under 
the chairmanship of Ira Hobbs, that has really put together a 
lot of work that has gone forward so that we can maximize the 
use of that within our existing resources, to be able to really 
deploy and utilize the talent that we have while we are also 
planning for the future and being able to move forward; that it 
is identified skill gaps for us to be able to concentrate on 
and to be able to move forward.
    I think that the budget process, the way that it is set up, 
as agencies continue to move forward and identify where they 
want to invest and how they want to do things, that the budget 
process allows for them to identify how they want to deal with 
this and how they want to move forward in the future, and it 
will be evaluated and reflected in the budget and the budget 
decisions.
    Chairman Tom Davis. OK. My last question is, the prevalence 
of Internet vulnerabilities highlights the need to establish a 
balance between the Government's communication with citizens 
and businesses and the security of Government networks. In his 
written testimony, Dr. Leighton recommends removing public-
facing Web sites from Government networks. Are you aware of 
agencies that do this or are considering implementing such 
measures, and would this adversely affect any of the electronic 
government initiatives?
    Ms. Evans. Those are considered managed services and each 
CIO, as he goes forward in his planning and his strategy to 
manage those resources, that is an alternative that is 
considered. And so if that is the best solution for that 
agency's cyber security posture, as well as meeting the mission 
that it needs, that is an alternative that is evaluated for 
potential service providers. So it is a great idea if it meets 
your business need and it matches your cyber security posture 
of what you are doing for your department as a whole.
    Chairman Tom Davis. OK. Well, thanks, this is the beginning 
of ongoing discussions and communications with you. I 
congratulate you on your new position. We are going to get our 
next panel in, and I wonder if you can stay for their 
testimony. I guess we wanted you to hear what they both have to 
say. We have two very able people from the private sector in 
this, and thank you very much.
    We will take a 1-minute recess and try to move our next 
panel on, and swear them in and hear their testimony. It is 
going to be, I think, pretty interesting.
    [Recess.]
    Chairman Tom Davis. Our next panel is Tom Leighton, the co-
founder and the chief scientist of Akamai Technologies, and Mr. 
Kenneth Ammon, the president and co-founder of NetSec.
    It is our policy that we swear you in before you testify, 
so if you will just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. We are the chief 
investigative committee in Congress, and that is why we swear 
people in. We are not anticipating any acts of perjury, 
although I did have Wes Unseld, who was the head coach for the 
Bullets, up before a committee 1 year, and I asked him, since 
he was under oath, ``Are the Bullets going to have a winning 
season this year?'' And his answer was ``I can promise you we 
will have exciting basketball.'' Now, at the end of the year we 
evaluated whether that qualified as crossing the line or not, 
given the record, but it is just the way we do things. But 
thank you both for being here. Dr. Leighton, why don't I start 
with you, and then Dr. Ammon. I think you have a demonstration?
    Mr. Leighton. Yes.
    Chairman Tom Davis. So take whatever time you need on that, 
the same with you, Dr. Ammon, and then we will move to 
questions.

 STATEMENT OF DR. F. THOMSON LEIGHTON, CHIEF SCIENTIST, AKAMAI 
TECHNOLOGIES, INC., PROFESSOR OF APPLIED MATHEMATICS, MIT; AND 
KENNETH AMMON, PRESIDENT AND CO-FOUNDER, GOVERNMENT SOLUTIONS, 
                          NETSEC, INC.

    Mr. Leighton. Chairman Davis, Ranking Member Waxman, 
Subcommittee Chairman Putnam, Subcommittee Ranking Member Clay, 
and members of the committee, I appreciate the opportunity to 
testify this morning about one of my personal and professional 
passions, namely, the Internet. The Internet has been a focus 
of my work at the Massachusetts Institute of Technology, and 
also constitutes the basis for our creation of Akamai 
Technologies.
    Akamai runs the world's largest distributed computing 
platform with more than 14,000 computer servers located in over 
1,100 different networks in 70 countries. Like the Internet 
itself, Akamai evolved from what was originally an academic 
research project sponsored by the Defense Advanced Research 
Projects Agency [DARPA]. Today, Akamai is a major commercial 
enterprise that delivers a substantial portion of all Web 
traffic. Using sophisticated mathematical methods and 
algorithms to coordinate the operation of thousands of Web 
servers across the Internet, Akamai distributes content and 
applications from thousands of Web sites to hundreds of 
millions of consumers worldwide. We serve each of you every 
day. Over 70 of the businesses on the Fortune 500 utilize the 
Akamai platform to distribute their content and applications 
reliably, securely, and efficiently, as do the Department of 
Defense, Department of Education, Department of Homeland 
Security, the FBI, Internal Revenue Service, the Centers for 
Disease Control and Prevention, the U.S. Geological Survey, the 
Supreme Court, and many other Federal, State, and local 
government organizations.
    As part of our services, Akamai provides an extensive, 
real-time, worldwide view of Internet traffic and conditions, a 
glimpse of which we will see this morning. One of our central 
missions at Akamai is to enable enterprises and government 
agencies to understand and manage the many vulnerabilities and 
problems associated with using the Internet.
    At Akamai we understand the power and potential of the 
Internet. Hundreds of millions of people use the Internet on a 
daily basis to send e-mail, search for information, pay a bill, 
buy a book, get the news, make a reservation, download music, 
run a business, or just to chat with a friend. Trillions of 
dollars of e-commerce are conducted over the Internet annually. 
The Internet is also used to manage critical national 
infrastructure in sectors such as transportation, banking, 
manufacturing, utilities, and defense. The Internet is truly a 
communications phenomenon that is transforming the way people 
work, live, derive entertainment, and communicate all over the 
world. It embraces fundamental notions of individual choice and 
freedom that are hallmarks of our American society.
    Unfortunately, the power of the Internet can be exploited 
for evil as well as good, a phenomenon that is not atypical for 
such a great advance in technology. And for reasons that I will 
describe shortly, the Internet is particularly vulnerable to 
the exploits of those with malevolent intentions. As you know, 
we have already witnessed events wherein a single individual 
has been able to disrupt Internet communications on a 
widespread basis, thereby causing billions of dollars in 
economic damage. Less well understood is the fact that 
information being transmitted on the Internet can also be 
rerouted, stolen, and manipulated with relative ease. The 
consequences of such vulnerabilities are becoming increasingly 
dangerous as our dependence on the Internet grows. Internet and 
software security are talked about much but understood little. 
Today I will spend a few minutes talking about how the Internet 
works and why it is vulnerable.
    Many people think of the Internet as a single network. This 
is a misconception. In fact, the Internet consists of over 
15,000 separate networks spread across most every nation in the 
world. The wires and fibers in these networks are 
interconnected in a somewhat haphazard fashion by millions of 
switches known as routers. There was no central architect who 
decided how or where the 15,000 networks should be connected to 
one another, and there was no central command center to govern 
the minute-by-minute or even month-by-month operations of the 
Internet.
    The glue that holds the Internet together and that allows 
it to function are the protocols such as the Border Gateway 
Protocol [BGP], that are used to route packets of data from one 
network to another, the services such as the Domain Name System 
[DNS], that are used to identify the correct destination for 
traffic on the Internet, and the myriad software packages used 
to support such diverse tasks as e-mail, Web browsing, file 
sharing, and instant messaging. All of the software and 
protocols have flaws that can be exploited by an attacker. 
Thousands of new flaws were discovered in just the last year.
    For the most part, the protocols used in the Internet today 
are very similar to those that were developed over 20 years ago 
when the Internet was first invented. Back then, the Internet 
was known as the DARPANet and it was used by only a small 
number of researchers in a few locations. The original Internet 
protocols were based on a foundation of trust. It was assumed 
that the users of the Internet would use the Internet for the 
purposes for which it was intended and that they would do 
nothing to harm either the infrastructure or other users, 
either intentionally or even by accident. There was a strong 
sense of community in which the individual user would not take 
actions to the detriment of the common good, even if such 
actions would directly benefit the individual. While such noble 
assumptions were fairly safe in the collegial environment of 
the DARPANet of 20 years ago, they are clearly not valid in the 
Internet of today, where there are many individuals and perhaps 
even terrorists or governments whose intentions are malevolent. 
And therein lies the problem.
    Let me begin the discussion of Internet vulnerabilities by 
showing you a video of what happened to the Internet when the 
Slammer Worm hit on January 25th of this year. On the monitor 
you can see a map of the world. Shading is used to 
differentiate between daytime and nighttime in the various 
geographics. The current time on this display is in the evening 
around 7 p.m. on January 23rd. On the monitor you will notice 
some red and yellow lines. A yellow line indicates a major 
Internet link that is experiencing a substantial degradation in 
performance. A red line indicates a link that is performing so 
poorly that it may well be unusable. It is normal to see a few 
such lines at any time on the Internet; the Internet is very 
large and it always has problems. This is one of the many 
displays that we use in our Cambridge Network Operations 
Command Center to diagnose the problems on the Internet.
    I will now advance this display over a period of several 
days. You will see the sun move over the globe and you will see 
changes in Internet conditions as various problems occur and 
abate. Everything is normal until just after midnight on 
January 25th, when the Slammer Worm was released into the 
Internet. As you will see, the impact of Slammer was dramatic.
    Akamai personnel first detected Slammer in Asia. Within 
minutes, Slammer had spread to hundreds of thousands of 
computers worldwide, causing a serious disruption to Internet 
communications that lasted for days on some networks. Akamai's 
measurements indicate that in the hours following Slammer's 
outbreak, as much as 20 percent of all Web traffic was 
interrupted. It is estimated that Slammer caused well over $1 
billion of economic damage.
    Critical U.S. Government networks were also affected. In 
fact, the BGP churn, a measure of network health, on a key 
Defense network was among the highest of the thousands of 
networks that we monitor worldwide.
    On the monitor you can see a plot of the churn caused by 
Slammer aggregated over the entire Internet. From left to right 
you will see time advance and the spike, of course, corresponds 
to the outbreak of Slammer. The pink or orange color denotes 
the churn on North American networks in the Internet, including 
Defense networks; the blue indicates the churn on Asian 
networks; and green denotes the churn on European networks. Of 
course, most of the networks are North American, and so you 
would expect to see a high churn in North America.
    The damage caused by Slammer is fairly well known. In fact, 
Slammer was the subject of some excellent testimony before the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census last month. What may 
be less well known is that Slammer was a relatively benign worm 
in that it had no ``payload.'' Slammer's only function was to 
replicate itself, and it was the mechanics of the replication 
that caused the damage. Had Slammer been specifically designed 
to cause damage, the outcome could have been far worse.
    Slammer exploited a software bug that had been discovered 6 
months earlier, one of the many such vulnerabilities that are 
discovered in Internet-based software each year. Other worms 
and viruses are more malevolent. In addition to using the 
infected computer as a host for self-replication, they also 
cause the computer to perform an Internet-based attack of some 
kind. For example, the Code Red virus released 2 years ago was 
specifically designed to attack the White House Web 
infrastructure. The recent Blaster worm was designed to attack 
Microsoft's Web infrastructure.
    On the monitor I have displayed the initial outbreak and 
current activity of Code Red and Blaster. On the left-hand 
column and the top row you will see the outbreak of Code Red 
roughly 2 years ago. On the bottom left you see the outbreak of 
Blaster. On the right-hand side you will see the current 
activity of those viruses and, as you can see, both viruses are 
still active, although both the White House and Microsoft have 
taken steps to mitigate any damage they may cause.
    In other cases, the virus or worm acts as a Trojan horse, 
leaving the infected computer in a vulnerable state that can be 
exploited later in a manner and at a time chosen by the 
attacker. In this way, an attacker can assemble an army of 
subverted computers from the comfort of his own home, perhaps 
in a foreign country. The attacker can then use the computer 
army to carry out an attack at will. Typically, the subverted 
computers reside in our homes and offices. It sounds strange, 
but the reality is that as we buy more powerful computers and 
provide them with better connectivity to the Internet, for 
example broadband, we increase the power of the attacker to 
inflict damage upon us.
    Even the world's largest Web presences cannot, by 
themselves, withstand a distributed denial of service attack, 
also known as a DDOS attack, from an army of thousands of 
subverted computers. As shown on the monitor, a typical Web 
site such as www.fbi.gov can process millions of bits of data 
per second. This shows normal use. Now we see what happens when 
the Web site is attacked by an army of subverted computers. The 
volume from a DDOS or distributed denial service attack can be 
1,000 times as large as normal usage. Recently, Akamai has 
observed volumes of attack traffic exceeding 6 gigabits a 
second. That is 6 billion bits of data being dumped on the 
target every second. Needless to say, the Web site will crash 
along with the infrastructure around it.
    Akamai's distributed network helps to mitigate such attacks 
by providing a shield for its customer's Web site. Instead of 
attacking a single location, with a distributed network 
architecture the army of subverted computers must now mount 
simultaneous attacks against thousands of servers in hundreds 
of locations. This is much harder to do. Moreover, the Akamai 
system has been designed to immediately recover from the loss 
of even large numbers of its servers, and so even if the 
attacker is successful in neutralizing some of our servers, 
Akamai still delivers the content from the Web site as if 
everything were running normally. This capability was proved 
during the recent war in Iraq, when the Akamai platform 
successfully thwarted several large-scale attacks that were 
mounted against key Government Web sites. It was also proved 
during the Slammer, Blaster, Code Red, and numerous other 
attacks, during which Akamai services operated normally.
    As I noted earlier, critical Government networks are also 
vulnerable to Internet-based attacks. In part, this is because 
Government networks often use the same hardware and software as 
the rest of the Internet and several are connected to the 
Internet just like everyone else. Hence, as was seen with 
Slammer, they are often affected like everyone else.
    Defending against Internet-based attacks can be difficult. 
For example, one defense against proliferation of viruses and 
worms on Government networks is to shut down all Web-based 
traffic on the network. Another defense is to disconnect the 
Government network from the rest of the Internet. Both defenses 
have the unfortunate side effect of cutting off access to 
thousands of Government Web sites from their daily users.
    Many steps can be taken to help prevent attacks on 
Government networks and to mitigate their effect. Monitoring of 
virus activity, maintaining up-to-date software patches, and 
improving the security and consistency of firewalls would all 
be helpful. It could also make sense to remove public-facing 
Web sites from Government networks altogether. As can be seen 
on the monitor, as long as the public is invited into 
Government networks in order to access public Web sites it is 
difficult, if not impossible, to prevent unwanted access by 
attackers. Attackers come in just as the normal public does. By 
serving the content externally, however, the public no longer 
needs direct access to the Government network and it is much 
easier to filter out attack traffic.
    The perpetrators of Slammer, Code Red, the original 
Blaster, and thousands of other Internet attacks have not been 
caught. That is because the Internet protocols make it very 
easy to mask one's identity, often by stealing that of another. 
For example, before a spammer releases his onslaught of 
unwanted e-mails into the Internet, the spammer will often 
hijack someone else's Internet identity and use that identity 
as the home base from which to send the spam. When 
investigators try to detect the source of the spam they are led 
to an innocent bystander.
    On the Internet most anyone can impersonate most anyone 
else. Impersonation was never really contemplated when the 
Internet was designed and so no defenses were incorporated to 
prevent it. The implications go well beyond spam. For example, 
there are many ways for a thief to steal credit card numbers, 
personal passwords, and many other sensitive data that are 
commonly transmitted over the Internet. If a thief wants to 
learn the password to your online bank account, the thief 
simply directs your computer or your Internet service provider 
to send him or her all Web traffic destined for your bank. He 
can do this because it is relatively easy to trick your 
computer and/or the Internet into sending traffic to an 
unintended destination.
    For example, one way of doing this is shown on the monitor. 
Displayed here is the normal operation of the Internet with 
end-users going to a Web server. They are directed to that Web 
server by the Border Gateway Protocol [BGP]. If we can see the 
next slide, we see what happens when a hacker or attacker wants 
to intercept that traffic. The hacker simply sends an 
electronic message to your ISP saying, ``Please send me the 
traffic destined for the bank.'' Your ISP doesn't check that 
the hacker is not the bank, and will immediately comply and 
send all traffic destined for the bank to the hacker. Once the 
hacker receives that information, it will return to your 
browser a copy of the bank's Web site. You then will enter your 
passwords and your confidential information to get access to 
your account, but now it has gone to the hacker instead of the 
bank and nobody knows.
    This phenomenon often happens by accident. Every day an ISP 
will accidentally claim the traffic for a Web site by accident, 
and part or all the Internet will send the traffic to the wrong 
location. This is known as black-holing. I know of a recent 
example where a major e-commerce site was black-holed by 
accident for 5 hours, costing millions of dollars in damages. 
Precise figures in the total amount of damage caused by e-crime 
annually are difficult to obtain, but data from the FBI's 
Internet Fraud Complaint Center indicates that this is a large 
and very rapidly growing problem.
    It is truly remarkable that the Internet technology 
developed so many years ago has scaled so well and in so many 
unforeseen ways. But the time has now come to take a fresh look 
at the Internet's protocols and operating procedures, and to 
implement the changes that are necessary to make the Internet 
more secure.
    The vulnerabilities that I have mentioned today represent 
just the tip of the proverbial iceberg. Many more are listed in 
my written testimony. The number I have talked about today is 
just limited by my time for this testimony, which is about to 
expire.
    I would be happy to answer any questions you would have.
    [The prepared statement of Mr. Leighton follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.020
    
    [GRAPHIC] [TIFF OMITTED] T1445.021
    
    [GRAPHIC] [TIFF OMITTED] T1445.022
    
    [GRAPHIC] [TIFF OMITTED] T1445.023
    
    [GRAPHIC] [TIFF OMITTED] T1445.024
    
    [GRAPHIC] [TIFF OMITTED] T1445.025
    
    [GRAPHIC] [TIFF OMITTED] T1445.026
    
    [GRAPHIC] [TIFF OMITTED] T1445.027
    
    [GRAPHIC] [TIFF OMITTED] T1445.028
    
    [GRAPHIC] [TIFF OMITTED] T1445.029
    
    [GRAPHIC] [TIFF OMITTED] T1445.030
    
    [GRAPHIC] [TIFF OMITTED] T1445.031
    
    [GRAPHIC] [TIFF OMITTED] T1445.032
    
    [GRAPHIC] [TIFF OMITTED] T1445.033
    
    [GRAPHIC] [TIFF OMITTED] T1445.034
    
    [GRAPHIC] [TIFF OMITTED] T1445.035
    
    [GRAPHIC] [TIFF OMITTED] T1445.036
    
    [GRAPHIC] [TIFF OMITTED] T1445.037
    
    [GRAPHIC] [TIFF OMITTED] T1445.038
    
    [GRAPHIC] [TIFF OMITTED] T1445.039
    
    [GRAPHIC] [TIFF OMITTED] T1445.040
    
    [GRAPHIC] [TIFF OMITTED] T1445.041
    
    [GRAPHIC] [TIFF OMITTED] T1445.042
    
    [GRAPHIC] [TIFF OMITTED] T1445.043
    
    [GRAPHIC] [TIFF OMITTED] T1445.044
    
    [GRAPHIC] [TIFF OMITTED] T1445.045
    
    [GRAPHIC] [TIFF OMITTED] T1445.046
    
    [GRAPHIC] [TIFF OMITTED] T1445.047
    
    Chairman Tom Davis. Thank you very much.
    Mr. Ammon, thanks for being with us.
    Mr. Ammon. My name is Ken Ammon, and I am co-founder and 
president of NetSec, an information security services firm 
headquartered in Herndon, VA. From our 24/7 security operations 
center, NetSec provides managed and professional security 
services to 5 of the Global 10 largest corporations, and 9 of 
the 15 cabinet-level departments of the U.S. Government. We 
monitor and manage systems in 22 countries around the globe. I 
would like to thank Chairman Davis, Ranking Member Waxman, and 
the committee for the opportunity to share with you the 
perspectives on enterprise security I have gained in my 5 years 
running NetSec, as well as my tenure in the U.S. Government, 
where I served as an Air Force officer and later as a security 
expert for the National Security Agency.
    I know the time of the committee is limited, so I will 
focus my remarks on two important and related subjects 
affecting the security of the information in the U.S. 
Government. The first examines some very real, rapidly emerging 
threats; the second looks at law this committee developed, the 
Federal Information Security Management Act, and how it can be 
the guidepost for effectively managing sensitive information 
across Government.
    Every member of this committee is familiar with the high 
profile worms and viruses that have disrupted operations and 
caused billions of dollars in economic damage across private 
and public sectors. We just observed how devastating these can 
be and how rapidly they can move. Clearly, such threats are 
serious and need to be addressed as part of any comprehensive 
information security strategy. But I am going to shift things 
and talk about the threats you don't hear about and can't 
readily detect. I submit that the threats I will demonstrate 
this morning may be less pervasive in their global reach, but 
may be far more devastating in their ability to breach the most 
sensitive boundaries of our national security and citizen 
privacy.
    In my mind, there are two important platforms involved in 
securing information. The first platform is the infrastructure, 
and that is personal computers, servers, and networks. This 
infrastructure platform has been the dominant focus of 
information security strategies to date. The second platform 
revolves around the applications and information within the 
network. It simply does not follow that a secure infrastructure 
ensures secure information.
    NetSec maintains what we call an Attack Lab, a facility 
where highly skilled ethical hackers are paid by our clients to 
break into their security systems in order to attempt to 
identify and resolve security vulnerabilities. In the course of 
recent application security research, NetSec's Attack Lab 
uncovered a method using the popular Google search engine and 
some advanced search key words to access sensitive data 
regarding U.S. military personnel actions, suspected 
terrorists, and very personal information about U.S. citizens.
    The slide up now demonstrates that information--some of 
which has been redacted--such as Social Security numbers, the 
name of the individuals, locations; and for those of you that 
can't read it, I know that the committee has a copy of this. 
Information about terrorist connections, passport numbers, 
countries of birth and such, this was all retained off a simple 
Google search, and this is just an example of thousands of 
records that we were able to access. Virtually anyone present 
in this hearing could access this information within a couple 
of minutes from virtually any PC connected to the Internet.
    It is highly probable that systems that house the data in 
exhibit 1 here were each certified and accredited to process 
sensitive information. Simple configuration changes to the 
applications could have prevented this information leak. 
However, only through end-to-end application-level testing can 
the full scope of such vulnerabilities be identified. While 
this type of testing is becoming more common among commercial 
clients, there seems to be little awareness of or interest in 
this kind of testing in the Federal Government. And this 
testing, just for simplicity purposes, is testing Web-facing 
applications and how they react to and accept information, as 
well as deliver information, both Government-to-Government and 
Government-to-citizens. This information needs to be carefully 
examined as a critical component of information security in the 
Federal Government as well, we believe.
    The second emerging threat involves the growing reliance on 
wireless networks that are being installed in Government 
facilities for obvious convenience, efficiency, and cost-
avoidance reasons. Wireless networks pose a great potential 
danger, because if the wireless network is not properly secured 
it can open gaping holes in previously secure wired networks. 
We refer to this problem as the ``steel door-grass hut'' 
approach to security.
    In the past, our Attack Lab has conducted several ``war 
drives,'' which are basically taking a car and driving around a 
particular region and, using a device similar to this, a 
Pringles can--you can get the instructions for this right off 
the Internet. And what this does is, it connects to your laptop 
and allows you to access wireless networks from a much greater 
distance than would be advertised by the providers. What we 
found is that they were able to connect to numerous, hundreds 
of wireless networks in the Federal core of Washington, DC. The 
image on the screen here, you can't see the color coding key, 
which is a little lower on the screen, but red, yellow, and 
green are represented here, red being high density, yellow 
being low density, and green is roughly 14 separate points is 
the low point for abilities to connect to these systems.
    Once again, the tools that the hackers use to connect to 
these networks are readily available on the Internet, and for 
our purposes we just detected the networks; it actually takes 
some additional effort to try to actually connect to the 
information available on the network. But literally you have 
the ability to be sitting in the desk next to somebody's 
computer once you connect to these wireless networks, and more 
than likely he will never know that it happens.
    So we believe the Federal Government must create an 
environment that continuously rises to the challenge of threats 
such as these. Congress has made an important contribution to 
securing our Federal information assets with the enactment of 
FISMA. The visibility and importance bestowed upon the issue of 
information security by the passage of this law are invaluable. 
However, Congress needs to pay close attention and continuous 
attention to how this law is interpreted and enforced in order 
for it to be effective in driving practical, pragmatic, and 
optimal use of resources available to achieve the best possible 
information security posture. To that end, I offer the 
following observations.
    FISMA does run the risk of becoming a paperwork exercise. I 
believe we need more focus on ``rubber meets the road'' risk 
measures that reflect our actual progress in reducing 
vulnerability, not just a report card on how much of the 
required paperwork has been filed on time. If you look at the 
reporting that is being done under the auspices of FISMA, there 
are virtually no objective measures of agencies' real-world 
security posture, and this is what is and is not acceptable 
risk.
    A good illustration is the emphasis on system certification 
and accreditation [C&A]. In the Federal IT community today, 
FISMA law and OMB guidance are widely interpreted as equating 
system security with the completion of system C&A. Much FISMA 
reporting focuses largely on the progress agencies are making 
in completing the C&A process for all of their major systems. 
C&A is the process whereby tradeoffs between security and 
efficiency are identified, optimized, documented, and approved 
in the course of fielding a new information system. It is an 
excellent way to reduce risk and to make sure the appropriate 
level of security is being designed into the system from the 
outset. Unfortunately, C&A provides little value when applied 
to existing or legacy systems. But due to the fact that FISMA 
compliance and progress has been equated with how many systems 
have gone through C&A, agencies are lavishly spending scarce 
resources to produce C&A reports that merely state the obvious: 
the legacy system is not secure and can't be effectively 
secured, in page after gory page of detail. And I actually have 
an example of one of these documents with us, and it is 5 
inches of documentation. So it is a lot of paperwork that you 
go through for just one system, and thousands of these are 
being produced. Just reviewing the resulting stacks of hundreds 
of these pages of documentation per system presents a daunting 
task. You can imagine that much of the documentation gets 
filed, never to be looked at again.
    In cases such as this, and in this I mean the legacy 
systems that are already in place, we need to stop wasting 
money on C&A reports, shortcut the paperwork process, and spend 
more of our money effectively for pragmatic risk reduction 
until the system can be modernized. If we fail to set up a 
system of reporting and oversight that promotes practical 
actions in the face of known vulnerabilities, we risk putting 
our best people in lose-lose situations such as that faced by a 
recently audited Federal agency. In this case, the agency was 
cited in the GAO report for failing to do C&A on an aging 
security system that was slated for imminent replacement by the 
agency. And I understand the price tag for one of these C&As is 
anywhere from $100,000 to $200,000 to certify and accredit a 
single system. The managers responsible decided, correctly in 
my opinion, that spending the money to do a C&A report on these 
systems would be a waste of taxpayer funds, but in doing the 
right thing agency technology and management executives left 
themselves open to criticism from the auditors and, 
subsequently, sensationalization of that criticism in the 
press. The irony is that the system cited had actually been 
rock solid--tested for security vulnerability and found not to 
contain any--and was actually put in place to mitigate 
significant risk that was in place in the system. It continued 
to perform flawlessly until its recent replacement with newer 
technology.
    My second observation is that security can't be bolted on 
to the IT infrastructure, and failures in IT management equal 
failures in security; you cannot separate the two, I believe. 
We must continue to get our IT management house in order to 
achieve a secure environment. No amount of focus on security 
can overcome fundamental weaknesses in how our information 
systems are managed.
    As Government and industry have learned from the recent 
worm outbreaks, you can't protect what you don't know about, 
and what you don't know about your infrastructure will hurt 
you. Automated malicious code and hackers are very efficient in 
finding the machines in your infrastructure that are not 
properly patched. Even though the information goes to the 
departments and agencies, there are vulnerabilities. In many 
cases they do not have the asset management and configuration 
controls in place to adequately ensure all these systems have 
been patched, and we believe this to be a foundation of 
security.
    Not to be ignored, a key issue for proper infrastructure 
management is organizational structure. Agencies should steer 
clear of having the fox watch the security hen house. There 
should be a healthy system of checks and balances and a 
positive relationship in place between those responsible for IT 
infrastructure and those responsible for information security 
management.
    My final observation this morning is that we mustn't waste 
scarce resources reinventing the wheel. There are too many 
redundant, ineffective efforts going on in parallel, all 
designed to provide 24/7 security vigilance for Federal 
networks. In many cases there are multiple, redundant efforts 
taking place, separate bureaus within the same department each 
building their own security operations infrastructure. This is 
a serious waste of precious security expertise and budget.
    NetSec clients, some of the world's largest corporations 
and government agencies, have recognized that enterprise 
security requires a level of focus and expertise hard to find 
in any organization, and we don't believe that these resources 
are going to be produced at a rate to meet this demand any time 
soon. That is why they have elected to entrust the monitoring 
and management of network security pieces to us, leaving scarce 
internal resources to focus on more core security-related 
issues.
    Where feasible, the Government should take advantage of the 
proven capability of commercial companies already providing 
top-notch 24/7 security services on an outsourced basis. 
Commercially managed security providers offer an unparalleled 
combination of research and operational 24/7 security 
expertise. Government should avoid investing in internal 
development of services already available in the commercial 
marketplace.
    In conclusion, not one of us in the room had an idea 10 
years ago, when the Internet was first made available to the 
public, that our addiction to this medium would become so 
substantial in such a short period of time. None of us knew the 
incredible potential of this medium to positively improve the 
lives of every citizen, increase the efficiency of Government 
and frankly, enhance the principles of freedom and 
communication that are hallmarks of our American society. So 
few of us had any idea the extent to which critical and 
sensitive information would become vulnerable to multiple kinds 
of mischief and misuse. There is no right or wrong answer. This 
may be the most important on-the-job training and learning 
program ever devised.
    Security must be addressed. I believe it has been relegated 
to a second-tier status when it comes to discussions of and 
investments in security and other national priorities. This 
committee led the effort that produced FISMA, and I believe the 
committee has an opportunity to lead and educate Government, 
especially at the senior executive levels, of just how 
important ongoing and coordinated information security 
management is to our national security.
    It has been a pleasure for NetSec as a company and me 
personally to appear here today. Your efforts are in fact very, 
very important. I wish you every success and stand ready to 
assist in an appropriate way. While the task of securing 
Government information systems is a daunting one, I am 
encouraged by the level of awareness and activity that has been 
fostered by the enactment of FISMA. We really do see this as 
landmark legislation and the focus on security is 
unprecedented. This committee has the opportunity, through its 
approach to FISMA oversight, to ensure that the attention paid 
yields true results and lowers the Federal Government's 
exposure to the security risks that go hand-in-hand with the 
benefits of the Internet.
    Thank you.
    [The prepared statement of Mr. Ammon follows:]

    [GRAPHIC] [TIFF OMITTED] T1445.048
    
    [GRAPHIC] [TIFF OMITTED] T1445.049
    
    [GRAPHIC] [TIFF OMITTED] T1445.050
    
    [GRAPHIC] [TIFF OMITTED] T1445.051
    
    [GRAPHIC] [TIFF OMITTED] T1445.052
    
    [GRAPHIC] [TIFF OMITTED] T1445.053
    
    [GRAPHIC] [TIFF OMITTED] T1445.054
    
    Chairman Tom Davis. Well, thank you both. I don't know if I 
feel better after your testimony, but I think it is very 
revealing, and it is information the committee has to have. I 
just have two or three questions I want to go through.
    First of all, Dr. Leighton, let me start with you. 
Basically, if you are concerned about security on the Internet, 
whether you are government, business, or an individual, you 
can't just buy a piece of software and be secure. I think that 
is the message here.
    Mr. Leighton. That is correct.
    Chairman Tom Davis. You basically need some kind of filter, 
some kind of system, your own pipes, to be able to protect, is 
that fair?
    Mr. Leighton. You need all that and you need the Internet 
to be fixed in the sense of securing the basic underlying 
protocols. Even if you bought the fanciest filters, firewalls, 
all the software patches, and did everything else right, as 
soon as your traffic goes out onto the Internet, the Internet 
is not secure, and someone could alter BGP because BGP is not 
secured, someone could alter DNS because that is not secured, 
and you could be compromised.
    Chairman Tom Davis. That is a huge job, to try to alter.
    Mr. Leighton. That is correct.
    Chairman Tom Davis. That is beyond the scope of this 
hearing and I think that will take some time to fix, but I 
think a lot of people don't understand that.
    Mr. Leighton. That is correct.
    Chairman Tom Davis. They plug it in and they don't 
understand how this evolved and how it came about.
    In your testimony you discussed some of the vulnerabilities 
affecting the Internet and indicated that these are only a 
fraction of the ones that we face. I wonder if you could just 
go into some of the others briefly.
    Mr. Leighton. Yes. I didn't speak at length about the 
Domain Names System. This is like the 411 of the Internet. When 
you go to call somebody on the phone, you punch in a phone 
number instead of their name, and you get the phone number by 
looking it up in a phone directory or calling 411. The Internet 
works the same way. You type www.fbi.gov into your browser, but 
your browser actually consults an Internet-like phone book to 
find the IP address, and that Internet phone book is 
distributed through something called the Domain Name System. 
That system is not authenticated, it is easy for a hacker or an 
attacker to change entries in the domain name servers, and that 
means that you think you are going to fbi.gov, but if someone 
changed the IP address or changed the equivalent of a phone 
number, you are going to go somewhere else. This is one way to 
get your bank information. You think you are going to your 
bank, but in fact you get routed somewhere else.
    DNS should be authenticated. You shouldn't be able to 
change an entry. It would be like changing the white pages in 
every city in the country, or your favorite city, without 
anybody knowing, only it is a lot easier to do on the Internet.
    BGP should be authenticated. Today, anybody can send 
traffic wherever they want, and they can do it selectively. It 
happens by accident all the time, and it is largely, today, 
untraceable. Akamai actually runs a service where we keep track 
of that and try to notify people when it is happening.
    And, of course, there are all the software vulnerabilities 
on the end computers. People, as we speak, are assembling 
armies of zombies to send spam. As we speak, there is a new bug 
in Internet Explorer that will send traffic to the wrong place 
namely, the hacker will direct where he wants your traffic to 
go. So it is yet another way that you can type your bank's name 
into your browser, but you are not going to your bank because 
someone has installed a Trojan horse on your computer without 
your knowledge. And it is easy to forge return addresses. One 
of the aspects that made spam so effective was the mail 
appeared to come from your friend and if you looked at it, 
everything looked like it was coming from somebody you 
recognized, so you opened it and looked at it and, wham, you 
got infected. Both at the packet level and at the application 
or e-mail level it is easy to forge the return address to make 
the traffic look like it came from somewhere else. And there 
are ways that one could hope going about stopping that and 
making it so you can't fake it on the Internet.
    So given these kinds of vulnerabilities, it is very easy to 
construct all different kinds of attacks to do bad things on 
the Internet.
    Chairman Tom Davis. I think some of those you are 
describing as cyber attacks could be nothing more than mere 
probing, searching for weaknesses, but the worst could be yet 
to come. I mean, could we potentially be facing a digital Pearl 
Harbor?
    Mr. Leighton. Yes, the attacks we have seen so far, for 
example, Slammer, which was considered so devastating, may well 
have just been a probe; it had no payload. It wasn't meant to 
do any damage, per se, it just grew so fast, that is what 
brought down so much of the Internet. One could imagine if you 
actually put a payload in a Slammer and made it more 
sophisticated, you know, it was only a very narrow attack, the 
possibilities are large. As we become more dependent on the 
Internet with critical national infrastructure, it becomes 
frightening what might be doable.
    Chairman Tom Davis. Thank you.
    Mr. Ammon, thanks for being here as well, and both of you 
for your presentations.
    Can you give me two or three specific actions you could 
identify to ensure that the Federal Government gets on track to 
secure the application and information environments that now 
reside on literally thousands of old and emerging computer 
systems?
    Mr. Ammon. I think there are two issues that are fairly 
critical. One is that the efforts that take place in assessing 
vulnerabilities on legacy systems should be pragmatic and those 
dollars should be split between finding out where the most 
significant vulnerabilities are and then applying dollars to 
mitigating that risk until the system could be modernized. Once 
again, the certification and accreditation process is fairly 
lengthy, and it is designed to provide the decisionmaker with a 
quantification of risk. In, I would say, 10 out of 10 cases 
there is really nothing substantial you can do to go back and 
change that risk in a legacy system, you pretty much have to 
take a look at how to do it right the next time around. I think 
what we are trying to do here is close 15 years of lack of 
security focus in a year or 2-year period, and I think we need 
a process to ramp up those older systems and then follow C&A 
for new systems that are coming out.
    The second issue as far as application level security goes, 
I know that there is a push to Web-enable much of Government, 
and I think that follows in step with commercial business and 
what everybody is trying to do, be more friendly with who you 
have to do business with and citizens, and make it easier for 
folks to exchange information. I think that there needs to be 
some type of information or legislation put into the existing 
FISMA Act that calls out specifically transaction-level 
assessments. Much of the focus is on infrastructure and, like I 
said, you can get that right and everything can check out, and 
we have seen examples where by just changing some information 
in your Web browser, right at the very top where you actually 
request to get to the Web site, you are now staring at somebody 
else's information. And this has been prevalent in financial 
and other communities, and they have been very concerned with 
this, and so they have made significant efforts to modify their 
methodology to ensure they assess this risk and correctly field 
these types of applications. But literally we have seen zero 
interest in the Government for actually taking a look at these 
types of risk and figuring out what to do about them.
    Chairman Tom Davis. Well, thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    This is intriguing and fascinating, and made all the more 
mysterious by my lack of knowledge in the technical area, so 
bear with me, if you would. Thank you for your testimonies.
    When you talk about new protocols, can we do that? I mean, 
is there likelihood that we are going to be able to accomplish 
a set of new protocols to get over the hurdles that we talked 
about? And if that is the case, what is being done now and who 
is doing it, is it Government or private industry moving in 
that direction? And what would Government's role be if there is 
a role for it in moving along that path?
    Mr. Leighton. Yes, Government has an important role to 
play. Just the way that Government provided the funding that 
created the Internet over 20 years ago, Government can provide 
the funding and direct funding toward research initiatives to 
help secure the Internet today. Some progress has already been 
made. There is technology available that can help secure BGP 
and DNS and the core infrastructure protocols. It is not being 
applied today, and part of that may be the expense associated 
with applying it.
    So there can be a combination of getting protocols that are 
even more affordable to be deployed on the Internet and also 
using the purchasing power of the Government to buy products 
and buy from companies that are supplying companies that are 
more secure, that have invested in the security. Typically, a 
company that is invested in security, the services cost more, 
the products cost more, and Government can play a role by 
deciding that they want the secure offering versus maybe an 
offer that is less secure, and using the purchasing power to do 
that. So it is a combination approach.
    Mr. Tierney. And is that happening now? Is something being 
done as we speak about securing some of these protocols, 
changing them?
    Mr. Leighton. There is some of that happening now. It would 
help to have it be happening a lot more and a lot faster.
    Mr. Tierney. You talked in your testimony a little bit 
about removing the public-facing Web sites from Government 
networks altogether.
    Mr. Leighton. Yes.
    Mr. Tierney. Is that a recommendation, that you would no 
longer have that public access to Government information in 
order to secure it? Or is there some way of doing that where 
you just separate the two and work from there?
    Mr. Leighton. The recommendation would be to actually 
improve the public access, which you would do by taking the 
public-facing Web sites off of the sensitive Government 
networks. Today you have a situation where there is a very 
large Government network, many Government networks, where they 
have thousands of public-facing Web sites sitting side-by-side 
with sensitive Government servers, and that is a recipe for 
problems. As the public comes in, the attackers come in, they 
infect the machines, and then the sensitive servers sitting 
right next door, they get infected, and now you have a serious 
problem. If you were to take the public-facing material and 
export that off of the Government network, take it outside of 
the sensitive network, now you don't invite the bad guys in 
with the public so, in effect, by doing that the access to the 
public content will be improved; it will be faster, it will be 
cheaper, and it will be more reliable, so the public gets 
better access to the Government and the Government stays more 
secure.
    Mr. Tierney. Mr. Ammon, I represent a lot of people who are 
really concerned about identity theft, and it hits all age 
groups, and I have heard some pretty horrendous stories right 
across the board, with seniors in particular, those that are 
able to rate the technology barrier and actually get access to 
computers and the Internet, if they are disabled or aged, 
things of that nature. What is the message to them here from 
what you talked about today, should they not trust doing 
business over the Internet? Should they be concerned that there 
is nothing in place to protect them absolutely right now, or 
should they be encouraged to do that, and what protections 
could they take to be reasonably certain that they won't be the 
victims?
    Mr. Ammon. Just from my observations on the use of the 
Internet, I think a lot of folks understand there is this level 
of risk, but the value of the Internet and the access to this 
information they feel really is something that drives them to 
still use the capability, even being aware this is possible. I 
believe, though, that there is an expectation that things are 
being done to make it better, and I think we are going to let a 
lot of folks down if we don't actually step up and do something 
to make it better, because these are widely publicized, these 
events, and the information definitely is used for ill intent, 
and we have seen more activity with organized crime wanting to 
get to this information so that you create a more effective way 
of exploiting that theft of identity. So I think that there is 
some patience still available, but things have to be moved 
quickly.
    Mr. Tierney. And who would we place that responsibility 
with, would it be industry, particularly the commercial side of 
these things, that they should protect themselves, or must the 
Government step in and do it because they might not do it?
    Mr. Ammon. I think that one of the challenges that you face 
is that it is impossible at this point to point to a model that 
someone has put in place and say, ``They have it right so let 
us just do what they have.'' I think what we have seen is, 
commercially more is being done at the actual ``rubber meets 
the road'' level for protecting their infrastructure, but 
Government has taken, I think, some fantastic leadership in 
putting together the visibility and oversight necessary in acts 
such as FISMA. I think that what we are doing is we are kind of 
closing the gap here, and Government has a great opportunity to 
take a leadership role and set a model for how this can be 
done, and I think corporate America would willingly adopt this 
if there was a Government model for actually executing on these 
problems. So I would recommend Government take a leadership 
position.
    Mr. Tierney. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I am really interested in the discussion concerning the 
wireless network access. In my own community, a couple years 
ago, a company that was interested in promoting their efforts 
to provide security services for companies that are using the 
Internet went around the city and identified networks that were 
open where there was a spillover, where the company was not 
even necessarily aware that they were broadcasting access to 
their network. We know that there are some places where people 
are advertising as an opportunity, bookstores and the like, to 
come in and utilize the wireless network, but many companies 
that implement the wireless network to one, get rid of a lot of 
the costs of wiring or two, provide themselves greater 
assistance in areas, for example, a building like this, where 
it may be very difficult to modify a building for wiring--might 
choose a wireless alternative, not really knowing that they are 
broadcasting access to their network.
    You began to discuss that even though people might have 
access to the network itself, they might not be able to gain 
access to secure information. But I think it is still a shock 
to many companies that might be using wireless that anyone 
could have any access to the network at all through that. So 
could you talk a little about the spillover and if there is any 
ability to limit the spillover if you choose to have a wireless 
network? And also how you might be able to secure access; if 
you aren't able to limit spillover, how can you make it so that 
someone cannot access it? I know that certainly any company, if 
they saw someone walk into their business and begin to plug 
into their network, would immediately consider that as doing 
something criminal but think nothing of the fact that outside 
of their walls people might be able to access their network. 
Could you elaborate on that, please?
    Mr. Ammon. Sure. I think wireless does have a lot of very 
beneficial features and it can be useful. I think that creating 
a policy and then having a way of enforcing that policy, the 
latter half of that statement is the real challenge. We see 
many organizations with a policy either prohibiting wireless 
security or stating how it can be done effectively and 
securely, but they really don't know when it is showed up in a 
way other than in that manner. Case in point, we had one agency 
where they had fielded a brand new security system, and all of 
the cameras that covered the perimeter actually were using 
wireless networking protocol to communicate. So the IT 
organization was not even aware that capability existed, that 
with a laptop you could sit a mile away, point these cameras at 
trees, at any point that you wanted to, because it had not been 
protected. And it really has to do with a lack of knowledge 
that these systems exist. So there are some emerging 
technologies that allow you to detect and actually enforce your 
policy, and we think there needs to be perhaps more education 
and focus that these technologies exist, and that can be an 
instrumental part for fielding a successful wireless program.
    Mr. Turner. Dr. Leighton, do you have anything else to add?
    Mr. Leighton. No. He covered it very well.
    Mr. Turner. Thank you.
    Chairman Tom Davis. Mr. Ruppersberger, any questions?
    I have a couple more questions.
    Dr. Leighton, you mentioned that Internet protocols make it 
very easy to mask one's identity, often by latching on and 
stealing somebody else's. This impersonation can be taken a 
step further, where an attacker can redirect Internet traffic 
to an unintended destination, pretending to be that of the 
original site, thereby getting access to highly sensitive 
information. What practical steps can we take to protect 
innocent bystanders from both forms of theft, outside of 
redoing the whole Internet?
    Mr. Leighton. I don't know that you would need to redo the 
entire Internet. It would help to authenticate Border Gateway 
Protocol so that if I went to an ISP and said, ``Send me the 
traffic for this IP address,'' it would check first and make 
sure that I own that IP address. There is mathematical 
technology called authentication encryption and authentication 
digital signature technology which could be applied in this 
context. A similar process could be applied to the Domain Name 
System. Secure protocols can be used to communicate if you are 
sure that both ends are actually using the protocol. One of the 
misconceptions today is when you go to your bank you are using 
SSL or HTTP secure, you think you are secure, but if I can 
intercept your traffic ahead of time, I won't start the session 
using the right key or I won't start the secure session at all, 
and so you are misled into thinking you are secure when you are 
not.
    So there are a variety of steps, and I guess the first is 
education, making people aware that the problem exists today 
and there is something to be dealt with. And then the next step 
is developing the right procedures to put into place in the 
existing Internet. I don't think you need to replace the 
Internet to make it more secure, it is improving the protocols 
to make them work better.
    Chairman Tom Davis. Do you think that is best directed from 
the Federal Government as a practical matter?
    Mr. Leighton. I think the Federal Government can certainly 
play an important role in highlighting the problem.
    Chairman Tom Davis. Absent us doing that, is it likely to 
occur, do you think, anytime soon?
    Mr. Leighton. No.
    Chairman Tom Davis. I guess that is what I am after.
    Mr. Leighton. No, we have known about this for a long time. 
We are seeing the effects of it now in a very public way, in 
the news stories, and it is something that affects all of us 
today. The effects will get worse if we don't correct the 
problem. Part of it is that you have 15,000 different competing 
economic units that make up the Internet, and they have to 
cooperate somehow, and leadership from the Government could be 
helpful.
    Chairman Tom Davis. Mr. Ammon, let me ask you. You talked 
about how FISMA could be nothing more than a big paperwork 
display, and that is our fear too. I think you said that the 
certification and accreditation process in FISMA should not be 
considered a panacea because it can't guarantee the security of 
legacy systems in the Federal Government. What are commercial 
best practices for ensuring older systems?
    Mr. Ammon. They are searching for leadership here also. I 
know that IT governance has now been augmented to include IT 
security governance, designed to drive visibility and such in 
commercial organizations. And I think that is a positive move 
forward, but they have spent, I think, more time at the 
execution level trying to ensure that these older systems are 
either phased out, and I think they have done that fairly 
rapidly, or they have put measures in place to, at a minimum, 
minimize the risk that is apparent. And they spend the money 
doing that as opposed to generating a very large document that 
just captures what they already know.
    And, look, we do certification and accreditation as a 
company, so I could sit back and say, great, we will keep doing 
it and make lots of money at doing this, but we think that it 
just leaves too much risk on the table. So having a parallel 
process that allows the Government and the security 
decisionmakers to short-circuit that process for legacy 
systems, but not basically meet the criticism of an audit, 
would be very helpful in allowing them to mitigate risk and 
build the systems more securely as they roll out the new 
systems. And I think that is something that could perhaps be 
put into FISMA, or at least guidance should be produced in that 
direction.
    Chairman Tom Davis. When I go home tonight, what is the 
first thing I can do to minimize the security threat to my own 
computer?
    Mr. Leighton. Get all the patches installed on your 
software, get a firewall installed, and be familiar with how to 
use it and make sure it is functioning properly.
    Chairman Tom Davis. OK. Do you agree with that?
    Mr. Ammon. We used to have a joke about this at the 
National Security Agency: ``Turn it off and put it in a box.'' 
But I think the real answer there is that bad things happen to 
computers. Sometimes the disk blows up, sometimes it is a virus 
that comes in. You know, back up your data, do some common 
sense, straightforward things, and make sure you have available 
security software such as virus protection software. There are 
personal firewalls that I think still have some growing to do, 
they seem to be overly complex for the average user, but even 
that can be helpful in mitigating some of the risk.
    Chairman Tom Davis. All that mitigates it, but clearly you 
are still very vulnerable.
    Mr. Ammon. You are still going to have issues, so just be 
smart about what you put on there, back it up. You know, these 
pervasive connections such as cable modems and such, they 
definitely increase the level of risk that you have. So if you 
are not going to be home, shut it down, don't leave it up and 
running, because people are constantly knocking on that door, 
and if they find something wrong, they will take advantage of 
it.
    Chairman Tom Davis. And the vulnerabilities are tremendous. 
If you get some malevolent group that understands this stuff 
and comes in, they can do severe damage. I mean, we talked 
before about a digital Pearl Harbor, that is the potential 
here.
    Mr. Ammon. Absolutely. Yes.
    Mr. Leighton. In addition to the harm that can be caused to 
you, if you are keeping track of your machine and the latest 
virus scanning and so forth, you want to be sure that your 
machine isn't contributing to the attack on somebody else's 
infrastructure, to make sure that your computer hasn't been 
subverted.
    Chairman Tom Davis. I know Mrs. Blackburn is on her way 
back from the floor. She just e-mailed and had some questions 
she wants to ask.
    Let me ask if any other Members have any other questions 
they want to ask at this point.
    And is there anything else that you would like to add that 
maybe you didn't get a chance to say that you want to emphasize 
in lieu of some of the questions that have come forth?
    Mr. Leighton. Well, I think we have covered the basic 
points: that there are serious problems, we need to be educated 
about them, and there are steps we can start taking to make 
things better, and I think Congress has a very important role 
there.
    Chairman Tom Davis. Viruses or worms can leave an infected 
computer in a very vulnerable state, as you noted before, that 
can be exploited later by an attacker. So it comes in and it is 
literally like a virus, it weakens the system so an attacker 
can come in. Now, how can homes and businesses protect 
themselves to ensure that their systems are not used as a 
Trojan horse? Is there any detection device on that you are 
aware of? If a home user's computer has such a Trojan horse and 
they want to file their taxes electronically or check their 
bank account online, then are those institutions at risk?
    Mr. Leighton. Yes. Getting the latest virus scan software. 
Typically, once a virus is out there, software has been 
developed to detect it, you know, in fairly short order, and so 
if you get that software, you can help detect that your 
computer has been compromised. In the most obvious cases your 
computer has all sorts of problems and you know something is 
wrong; in the less obvious cases it is being used as a Trojan 
horse and you don't detect the problem, and that is why you 
want to be proactive about seeing if you have a problem even 
though you are not witnessing symptoms currently. There are 
stories today of computer armies numbering many thousands, 
maybe hundreds of thousands of computers connected to the 
Internet that can be used later for an attack, and you want to 
be sure that your computer is not one of them.
    Chairman Tom Davis. You are both out there in the private 
sector, marketing products, meeting with people. Why is there 
still a lack of attention paid in some cases to information 
security as a fundamental element of routine business 
operations in many businesses?
    Mr. Leighton. There is a lack of understanding of the 
nature of the problem and there is severe economic pressure 
that limits proactive investment in security-related offerings. 
That makes it hard to invest in a problem that hasn't happened 
to you yet. We see that all the time in speaking with 
customers; they haven't been hit yet by something, and so they 
are not as inclined to put the investment in to prevent that 
something from happening.
    Chairman Tom Davis. It is like homeowners insurance almost, 
right?
    Mr. Leighton. Exactly. Once the disaster happens, they are 
very happy customers, because then they know there is a cost 
involved and that they can prevent it from happening again at a 
very low price. So it is exactly that situation.
    Mr. Ammon. I think organizational structure is problematic 
at this point also. When you put the security responsibility 
directly under the CIO you can have, especially in commercial 
organizations where CIOs are very driven to reduce costs, you 
have a security officer basically looking to introduce cost 
into the business. That can affect incentives, goals, 
compensation of the person who is trying to reduce the overall 
expense in IT. So I think in some cases where we have seen 
commercial organizations place that role in a different 
organization, I think that you get greater high visibility for 
what may be wrong and potentially more support for the dollars 
to fix it, because you are not at odds with your goals that you 
are trying to achieve in your position.
    Chairman Tom Davis. Mr. Putnam wanted to ask this question. 
He says, given that there are oftentimes patches available for 
identified vulnerabilities, why is it that so many government, 
corporate, and home users remain so incredibly vulnerable? And 
I guess from your statement, you can have all the patches you 
want, but there are always more vulnerabilities out there and 
people willing to exploit them. But I will let you answer it.
    Mr. Leighton. Yes, that is true. That said, the best thing, 
the first thing to do is get the patches installed. And part of 
the issue there is there are just so many bugs and exploits 
that patches just keep on coming, and you have to make sure you 
stay current, and that takes real effort.
    Chairman Tom Davis. Are most of these viruses and worms 
that you are seeing in your businesses coming from outside the 
United States or from inside the United States?
    Mr. Leighton. That is actually hard to say with certainty, 
because most of them you can't track their origin. We first 
observed Slammer in Asia, but it spread very quickly. We can't 
say for sure that it started there. So it is really hard to 
know for sure where they come from.
    Mr. Ammon. And I think that you can get descriptions of how 
these viruses or worms actually work, and they make your head 
spin, lots of ones and zeros and Xs and Os and such, but there 
are tools available on the Internet that basically give you a 
workbench with a mouse and point and click that allows you to 
build these. So what has happened is you have enabled the 
novice now to go out and build these type of destructive 
capabilities, launch them into the wild, and they do their 
damage. So it used to be you had to be very smart to put one of 
these things together, and so you were limited by the number of 
smart, malicious folks you have. Well, now they have sort of 
multiplied their ability to do damage by creating toolkits for 
the novice to do this. And I think it is something worth taking 
a look into and discussing whether those tools should be out 
there and available.
    Chairman Tom Davis. Do you think most of these attacks are 
malevolent or just people playing games?
    Mr. Ammon. Well, I think you get to see the ones that sort 
of have a life of their own. What you don't see is what I think 
you should be very concerned about, because the motivated 
attacker, the enemy to the country or corporation is not going 
to make a lot of noise, doesn't want to be seen, and they are 
going to get in and they are going to get out, and they are 
going to get to the valuable information; and we have seen this 
in economic espionage as well as just Government situations 
when I was at NSA.
    Chairman Tom Davis. Government architecture and computers 
have locally-loaded application software. Would it be a good 
idea for Government to use a thin client which would make 
software applicable to a central control server that would 
minimize that threat? Any thoughts on that?
    Mr. Leighton. I think a lot of the same issues would exist. 
You know, if it brought greater control and visibility as to 
what is going on, what software is on your network, that is 
helpful, but a lot of the same issues will still exist.
    Mr. Ammon. A browser is a fairly simple piece of software. 
What we found is that there is complex infrastructure on the 
other side of that browser that you connect to to do business; 
there are data bases, the actual technology that allows you to 
see a Web page when you go to a site, and that is a fairly 
complex infrastructure, it involves many components. And I 
think that end-to-end security of the platform that houses the 
information and serves the request is where the focus needs to 
be. If you get that right, then the client shouldn't be able to 
do damage to you.
    Chairman Tom Davis. Thank you very much. This has been, I 
think, very helpful to the committee. I don't see Mrs. 
Blackburn here. I will give her a minute with you afterwards if 
she walks in in the next couple of minutes. This has been 
excellent in terms of collecting information. You know, what we 
do with it, what the administration does with it, I think is 
really going to be up to us to sit down and talk about. But I 
hope to use you both as resources as we move forward. We 
appreciate what you are doing and the innovations you are 
bringing to bear and your experience out there in the real 
world. Again, having been in the private sector and the 
incentives that are offered for what you get, this is money 
that you spend defensively that you have nothing to show for on 
the bottom line. You are looking at your risk, I guess, but 
everybody thinks it can't happen to them.
    Let me ask one other question. How commonplace is it, Dr. 
Leighton, with your clients, that there are penetrations that 
you are able to stop? You can detect that to some extent, can't 
you?
    Mr. Leighton. Yes. Certain kinds of penetrations have 
substantial success: Web-based attacks and keeping the Web 
infrastructure running even when it is under attack. We have 
several high profile Government sites, including the FBI, which 
we aren't allowed to talk about, which we are having trouble 
keeping up because of all the attacks, and since they have used 
Akamai services they haven't witnessed an attack on their site 
even though it happens every day, and that is because we 
provide a defensive shield.
    Chairman Tom Davis. And you can see that from where you 
are, that the shield is working, basically?
    Mr. Leighton. Oh, absolutely. And we give them monitoring 
tools so they can actually see the attack and say, ``Oh my 
goodness, there is a major attack against the site,'' but the 
site is functioning normally because we are fielding that 
attack and monitoring it. We have seen some extraordinarily 
large attacks against Government Web sites during the last 
year.
    Chairman Tom Davis. And so far you have been impenetrable?
    Mr. Leighton. So far.
    Chairman Tom Davis. That is all I can ask.
    Mr. Leighton. We put a lot of investment in trying to make 
sure it stays up and running and stays secure.
    Chairman Tom Davis. OK. Well, again, thank you both very 
much. We appreciate your being here.
    And the record will remain open if Members want to add 
comments until the end of the day. If you have any additional 
thoughts in the next week or so, we will keep the record open 
and you can supplement it. The hearing is adjourned. Thank you.
    [Whereupon, at 11:45 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1445.055

[GRAPHIC] [TIFF OMITTED] T1445.056


</pre></body></html>
